OFFICE OF INSPECTOR GENERAL

Audit of the Inter-
American Foundation’s
Financial Statements for
Fiscal Years 2007 and 2006
AUDIT REPORT NO. 0-IAF-08-003-C
November 14, 2007




WASHINGTON, DC
Office of Inspector General


Office of Inspector General

November 14, 2007

MEMORANDUM

TO:                  IAF President and CEO, Amb. Larry L. Palmer

FROM:                AIG/A, Joseph Farinella /s/

SUBJECT:            Audit of the Inter-American Foundation's Financial Statements for Fiscal Years
                    2007 and 2006 (Audit Report No. 0-IAF-08-003-C)

The final report on the subject audit is enclosed. The Office of Inspector General contracted
with the independent certified public accounting firm of Gardiner, Kamya & Associates, P.C.
(GKA) to audit the financial statements of Inter-American Foundation (IAF) as of September 30,
2007 and 2006 and for the years then ended. The contract required that the audit be performed
in accordance with generally accepted government auditing standards; generally accepted
auditing standards; Office of Management and Budget Bulletin 07-04, Audit Requirements for
Federal Financial Statements; and the Government Accountability Office/President's Council on
Integrity and Efficiency Financial Audit Manual. GKA determined that:

•    the financial statements were fairly presented, in all material respects, in conformity with
     U.S. generally accepted accounting principles,

•    there were no material weaknesses or significant deficiencies in internal control over
     financial reporting (including safeguarding assets) and compliance with laws and
     regulations,

•    there were no instances in which IAF’s financial management systems did not substantially
     comply with the requirements of the Federal Financial Management Improvement Act of
     1996 (FFMIA) Section 803(a), and

•    there were no instances of reportable noncompliance with laws and regulations tested.

In connection with the audit contract, we reviewed GKA’s report and related documentation.
Our review, as differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express, and we do not
express, an opinion on IAF’s financial statements. We also express no conclusions on the
effectiveness of IAF’s internal control, IAF’s substantial compliance with FFMIA Section 803(a),
or IAF’s compliance with other laws and regulations. GKA is responsible for the attached
auditor's report dated November 1, 2007 and the conclusions expressed in it. However, our
review disclosed no instances where GKA did not comply, in all material respects, with generally
accepted government auditing standards.

U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
The report does not contain recommendations and IAF has elected to not formally comment on
the report.

The Office of Inspector General appreciates the cooperation and courtesies extended to our
staff and to the staff of GKA during the audit. If you have questions concerning this report,
please contact Alvin Brown at (202) 712-1003.
            INTER-AMERICAN FOUNDATION
FINANCIAL STATEMENTS AND INDEPENDENT AUDITORS’ REPORT THEREON

      For the Fiscal Years Ended September 30, 2007 and 2006
                                               TABLE OF CONTENTS
MESSAGE FROM THE PRESIDENT .......................................................................................................1
MANAGEMENT DISCUSSION AND ANALYSIS ......................................................................................4
INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS......................................................21
BALANCE SHEETS............................................................................................................................23
STATEMENTS OF NET COST ..............................................................................................................24
STATEMENTS OF CHANGES IN NET POSITION....................................................................................25
STATEMENTS OF BUDGETARY RESOURCES ......................................................................................26
NOTES TO FINANCIAL STATEMENTS ................................................................................................27
INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ...............43
INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS ......................45
                 Inter-American Foundation
                                                           An Independent Agency of the U.S. Government


Message from the President

The Inter-American Foundation (IAF), an independent foreign assistance agency of the United
States government, provides grants to grassroots organizations in Latin America and the
Caribbean. Created in 1969 as an experimental program, the IAF responds to innovative,
participatory and sustainable self-help development projects proposed by grassroots groups and
organizations that support them. It also encourages partnerships among community
organizations, businesses and local governments directed at improving the quality of life for
poor people and strengthening democratic practices. To contribute to a better understanding of
the development process, the IAF shares its experiences and the lessons it has learned.

The IAF is governed by a nine-person board of directors appointed by the President of the
United States and confirmed by the U.S. Senate. Six members are drawn from the private sector
and three from the public sector. The board is assisted by an advisory council. A president,
appointed by the board, serves as the Inter-American Foundation’s chief executive officer,
managing a staff of 47 employees based in Arlington, Virginia. The IAF is organized into three
offices; Executive, which houses the Office of the President, General Counsel and External
Affairs; Operations, which manages Evaluation, Financial Management, Publications, Human
Resources and Information Management; and the Program Office, which manages the grant
program.

The IAF plays a crucial role in U.S. foreign policy by delivering U.S. government assistance
directly to the poor of Latin America and the Caribbean and the groups that support them. Year
after year, the IAF’s investment in the ideas and energy of ordinary people has yielded
extraordinary returns in the form of economic improvement for families and better living conditions
in communities throughout the hemisphere. Many of the grassroots leaders supported by the IAF
have gone on to play influential roles in democratic processes and have helped strengthen good
governance principles. No longer considered experimental, the IAF’s responsive approach is
increasingly the model for overhauling top-down funding structures.

In FY 2007, as a result of IAF support, thousands of people in Latin America and the Caribbean:

    •   received the skills and training necessary to increase their family incomes;
    •   benefited from the creation of new jobs;
    •   were extended credit for income-generating small and micro- businesses;
    •   benefited from access to clean water, medical attention and enriched nutrition.

Many of the IAF’s FY 2007 grants were awarded to organizations serving historically marginalized
and excluded groups including women, African descendants and indigenous communities as well as
persons with disabilities, bringing them into the development process and, eventually, into their
countries’ economic and political life. The IAF is working to maximize the investments made by
other USG agencies in the region. In Nicaragua, for example, IAF funding and outreach are

                                                 1
designed to complement Millennium Challenge Corporation efforts in the Leon-Chinandega
corridor, enabling local farmers to take advantage of the MCC’s infrastructure and land titling
initiatives.

IAF’s successes are the results of (1) small amounts of U.S. taxpayer dollars carefully invested; and
(2) vigorous efforts to make each dollar go further. In order to foster community ownership and
long-term sustainability, the IAF requires all grantees to contribute to their project in cash or in
kind, encourages them to partner with local government and urges them to mobilize funds to sustain
their impact after the grant period. The IAF is nurturing community foundations as development
donors and reaches out to U.S.-based immigrants interested in supporting self-help initiatives in
their home communities.

The IAF’s efforts extend well beyond its grant portfolio. The IAF-initiated corporate network,
RedEAmérica, marshals considerable resources for social responsibility programs supporting
grassroots development. Members that are parties to IAF cooperative agreements match IAF
funding two-to-one; the entire network raises contributions from a variety of sources. Additionally,
IAF staff is actively pursuing collaborations with Latin American governments, including, via their
Social Investment Funds, and the introduction of Opportunity Zones, a Summit-of-the- Americas
mandate based on the U.S. experience with renewal communities.

The Inter-American Foundation’s Strategic Plan for FY 2008 through FY 2013 flows from the
lessons of its experience. The Strategic Plan reflects the IAF’s vision for a steady increase in
international support for grassroots development. The IAF’s FY 2008 goals are identical to the
longer-term goals in the Strategic Plan and incorporate goals and performance measures developed
with the Program Assessment Rating Tool, which helped sharpen the IAF’s focus on its
development mission.

The IAF streamlines operations and lowers costs by outsourcing its procurement, accounting,
budget and information technology functions to the Bureau of the Public Debt (BPD). Under an
inter-agency agreement, BPD’s Office of Information Technology in Parkersburg, West Va.,
maintains a remote data center for IAF contingencies and continuity of operations. In June, the IAF
again completed annual contingency testing of remote access to alternate file, e-mail and grant
database servers at BPD’s data center through the use of a Virtual Private Network (VPN)
configured on laptops assigned to essential employees, using card readers with PKI cards to meet
dual factor authentication requirements.

IAF is making progress on benchmarks established in the agency transition plan to Internet Protocol
Version 6 (IPv6), as required by the Office of Management and Budget. During FY 2007, IAF
established a dedicated T1 internet circuit line between IAF and BPD and began using BPD’s proxy
servers and IPv6-compatible firewalls. IAF routers were upgraded and replacement switches should
be in place by February 2008. The key transition objective is to allow IPv6 and IPv4 hosts to
interoperate. A second objective is to allow IPv6 hosts and routers to be deployed in the Internet in
a diffuse and incremental fashion, with few interdependencies. A third objective is that the
transition should be as easy as possible for end-users, system administrators and network operators
to understand and carry out. BPD technical specialists are developing a risk-mitigation strategy and
test plan for IPv6 compatibility/interoperability.

In response to the Homeland Security Presidential Directive (HSPD-12) to establish a common
                                                 2
identification standard for federal employees, the IAF signed an inter-agency agreement with the
DOI National Business Center as its HSPD-12 service provider and issued the first PIV card in
October 2006. However, because NBC discontinued its HSPD-12 services in June 2007, IAF is now
working with GSA as its HSPD-12 services provider. Through this new arrangement, IAF expects
to resume card issuance in FY 2008.

As mandated by the Federal Information Security Management Act (FISMA), the IAF completed
the re-certification and accreditation of the Enterprise Network System and Grant Evaluation and
Management System (GEMS) in August 2007. Auditors from the USAID Office of the Inspector
General (OIG) completed the annual independent assessment of the security infrastructure
supporting IAF’s enterprise network system and agency compliance with FISMA. A positive final
audit report was received from the OIG auditors in September 2007.

The IAF is among the agencies supporting E-Gov. BPD has implemented the integration with the
Central Contractor Registration, the system used by suppliers as the sole repository for pertinent
data, including remittance information. Integration allows BPD and the IAF to maintain more
efficiently current data related to suppliers. The IAF is supporting the Financial Management Line
of Business (FMLOB) Initiative by using BPD’s Oracle Federal Financials System and related
accounting and procurement services. In June, BPD began reporting FMLOB metrics for IAF. The
Oracle platform provides real-time, user-friendly financial reports. Since FY-05, the IAF has been
using GovTrip, the government-wide E-Gov Travel system integrating online booking with the
automated authorization and vouchering process allowing travelers to attach receipts electronically.
The IAF continues to receive unqualified audits of its financial statements, internal controls over
financial reporting, and its compliance with laws and regulations.

I am pleased to introduce the IAF’s FY 2007 financial statements, which reflect the IAF’s quest to
become increasingly innovative while adhering to its core principles.

The financial statements and performance results data are complete, reliable and in accordance
with the Office of Management and Budget (OMB) requirements and in conformity with
generally accepted accounting principles. The IAF has appropriate management controls in
place to ensure that all internal controls are operating in accordance with applicable policies and
procedures and are effective in meeting the requirements imposed by Federal Managers’ Financial
Integrity Act (FMFIA) and the Federal Financial Management Improvement Act (FFMIA).

Signed:

/s/

Amb. Larry L. Palmer
President




                                                 3
MANAGEMENT DISCUSSION AND ANALYSIS

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, innovative and effective in its grassroots development programs. The IAF learns from
its experience, and uses the lessons learned to improve its own grant making decisions and to
advance the knowledge and success of development practitioners, donors, and policy makers.

Mission and Organizational Requirements

The Inter-American Foundation funds self-help and participatory development efforts in ways that
support democracy and strengthen the bonds of friendship and understanding in the Western
Hemisphere. The IAF supports initiatives proposed by the organized poor in Latin America and the
Caribbean to improve their quality of life. IAF staff, representing the American government and
people, maintain a supportive relationship with the grantees and their beneficiaries during the
course of projects and, frequently, beyond. The IAF’s experiences are documented and shared with
a broad and diverse audience.

The IAF vision for the next six years is a steady expansion of support for grassroots development
and greater participation by the people of Latin America and the Caribbean in their countries’
economic development, social processes and political life. The IAF will continue to respond to the
best ideas from the region, empowering people by strengthening a vast infrastructure of community
groups and nongovernmental organizations that has become a highly effective and transparent
channel for productive foreign assistance. Because a broader resource base is crucial to an expanded
IAF program, the IAF will seek additional resources from various sources. The IAF will build on its
well-documented record of drawing local government, businesses, corporate foundations and
transnational communities into grassroots development. Through disseminating the lessons of its
investment to other donors, to policymakers and to American taxpayers, the IAF can continue to
lead the development community toward a realization that bottom-up development, in which the
organized poor play a leading role, is more effective than traditional top-down approaches.

The Fiscal 2007 Accomplishments

In FY 2007, the Inter-American Foundation received an appropriation of $19.347 million for
program and program support activities, which was supplemented by $6.317 million from the Social
Progress Trust Fund for development grants and by $336,000 in carry-over funds. The total budget
was $26 million. The IAF’s primary funding strategy is responsiveness to the best development
ideas emerging from the grassroots throughout Latin America and the Caribbean. In-depth
evaluations of selected projects complement normal reporting; the information is made available to
staff and to the development and academic communities.




                                                 4
Grants Funded in FY 2007

In FY 2007, the IAF funded 65 new grants in the amount of $12,347,542 and amended 28 ongoing
projects in the amount of $2,041,345 totaling more than $14,388,887 in grant funding; representing
100 percent of all grant funds for FY 2007. These funding actions are divided among primary
program areas as follows:

                FY 2007 Primary Program Areas         Funding Actions        Amount
                Business
                Development/Management                         25            4,006,873
                Education/Training                             23            2,836,994
                Food Production/Agriculture                    22            3,331,945
                Environment                                    8             1,460,104
                Corporate Social Investment                    5             1,430,344
                Cultural Expression                            4               513,020
                Community Services                             3               506,007
                Legal Assistance                                2              188,720
                Research/Dissemination                         1               114,880
                FY 2007 Total IAF Funding                      93          $14,388,887

Descriptions of the FY 2007 funding actions are available upon request. Detailed below are the
IAF’s accomplishments of its objectives for FY 2007. For ease of reference the objectives are listed
under the relevant goal from the original Strategic Plan submitted, and the accomplishments follow
the corresponding objective.

Accomplishment of the Goals and Objectives of the FY 2007 Program

The Inter-American Foundation achieved its goals as follows:

Strategic Plan Goal I: Effective development

The IAF will identify and fund projects promising effective development and will measure the
results against objective indicators of the desired outcome selected in consultation with each
grantee. Annual grantee reports are verified by IAF staff and contractors.

Performance Goal 1.1: Fund grassroots development proposals promising improvement in the
quality of life as measured by such indicators as increased income, jobs created and better access to
social services, housing, sanitation, clean water and education.

       Performance Measure 1.1.1: Percentage of grantees, whose funding ends in FY 2007, that
       meet or exceed outcome goals specified for their project as determined by verified scheduled
       reports (recognizing that natural disasters and political and economic factors beyond the
       control of the grantees can affect progress).

       Funding for 20 grantees ended, or is scheduled to end, in FY 2007. Of grantees reporting by
       July, 62 percent met or exceeded their goals. The IAF will continue to receive reports
       through December 2007, and an updated percentage of successful grantees will be submitted
                                                 5
       to OMB in the FY 2008 PART due this spring.

Performance Goal 1.2: Promote participatory development as the fundamental building block of
democratic self-governance.

       Performance Measure 1.2.1: Funded proposals reflecting the engagement of beneficiaries
       in project design, execution and follow-through.

       The IAF funded 65 new grants and amended 28 ongoing projects totaling more than
       $14,388,887 in grant funding, Beneficiary engagement continued to be a significant factor in
       the selection of proposals.

       Performance Measure 1.2.2: Funded training in self-governance and the skills necessary
       to partner with local government in community development.

       Nine new grantees and one prior-year grantee that received an amendment will provide
       training in participatory planning and partnerships with local government, skills specifically
       related to self-governance.

       The IAF and Florida International University and Miami-Dade County co-sponsored their
       13th Inter-American Conference of Mayors and Local Authorities in Miami, June 11-14,
       where nearly 600 participants from 12 countries discussed municipal management and
       development. IAF panels spoke on responding effectively to community concerns and
       initiatives and on offering an incentive structure to further development.

Performance Goal 1.3: Identify opportunities for development among traditionally excluded
peoples, among them people of African descent, indigenous peoples, people with disabilities and
women.

       Performance Measure 1.3.1: Funded projects proposed by grassroots organizations
       specifically serving excluded communities, including those enumerated above.

       The IAF funded 34 projects reaching African descendants, indigenous communities, people
       with disabilities and young people. Some of these specifically benefit women.

       Nine grants were awarded to organizations serving African descendants in Brazil, Colombia,
       the Dominican Republic, Ecuador, Honduras and Nicaragua. Some of this funding will
       break new ground by reaching communities new to the IAF: Nicaraguan and Guatemalan
       garifuna and the severely marginalized Haitians and people of Haitian descent who work in
       Dominican sugar cane fields and live restricted to bateyes, or shantytowns infamous for their
       harsh conditions. A grant to Federación Nacional de Organizaciones No Gubernamentales
       para el Desarrollo de las Comunidades Afrocolombianas (FEDEAFRO) funding research on
       the unmet needs of Afro-Colombians and indigenous Colombians in Cali and Buenaventura,
       has attracted the interest of the United States Congress. “I hope this important and
       progressive grant award will promote efforts to mobilize African descendants and
       indigenous Colombians to influence public policy,” U.S. Representative Charles Rangel
       wrote in a letter to the IAF president.

                                                 6
Funding to 17 organizations in Bolivia, Colombia, Ecuador, Guatemala, Honduras, Mexico,
Panama and Peru will continue IAF’s long history of supporting the self-help efforts of
indigenous peoples. This year’s grantees target better income, particularly for craftswomen,
improved health practices, water quality and sanitation, and bilingual education for young
children.

Two new grantees will help individuals with disabilities live independently, will raise
awareness of their challenges and capabilities and will promote their ability to generate
income.

Six new awards bring to 14 the number of IAF grantees actively addressing the problems of
young people through job training, employment opportunities and support for their
enterprises. The IAF also collaborated with the Central American Coalition for the
Prevention of Youth Violence on workshops centered on reducing violence, reintegrating
young offenders and on community-based, youth-led initiatives to develop leaders and jobs.

Performance Measure 1.3.2:           IAF-sponsored participation of representatives of
traditionally excluded populations in international development fora, studies, publications
and other activities.

The 2007 issue of the Inter-American Foundation’s journal Grassroots Development
focused on the concerns of African descendants from throughout the hemisphere as well as
examples of self-help initiatives in features, articles, notes and reviews of publications and
films. The journal also included a feature on indigenous Mexicans in community forest
management, a photo essay on indigenous Peruvian textile workers and a review of a book
on the indigenous movement in Bolivia. Shorter notes covered disability activism, youth
programs in Central America and the advancement of women in a Salvadoran organization.

A FY 2006 IAF grant to the Latin American Studies Association (LASA) supported Otros
Saberes, a program bringing Latin American and U.S. - based researchers together in six
teams to study transnational indigenous networks and the political participation of African
descendants. The IAF grant funded two of the teams. The Open Society Institute, the Ford
Foundation and Harvard University also contributed toward the research conducted in
Ecuador, Colombia, Brazil, Nicaragua, Puerto Rico and Mexico as well as in the U.S. The
teams shared their findings in September at two sessions of the LASA Congress in Montreal
and at a two-day workshop immediately following the Congress.

IAF made possible the attendance of representatives of traditionally excluded populations in
more than 16 international fora, some of which are described as follows:

   •   Twenty activists participated in the Inter-American Conference for the Dignity and
       Rights of Persons with Disabilities and their Families in Panama co-sponsored by the
       Panamanian government and the Organization of American States, which launched
       the Program of Action for the Decade (2006 – 2016) of the Americas for persons
       with disabilities. IAF coordinated its participation with the U.S. Permanent Mission
       to the OAS.


                                          7
          •   The IDB in partnership with IAF, ETHOS Institute and the Federação das Indústrias
              do Estado da Bahia hosted the IV Inter-American Conference on Corporate Social
              Responsibility in Salvador, Brazil, where the IAF showcased grantees that engage in
              business partnerships with persons with disabilities, African descendants, and
              indigenous peoples in Bolivia, Brazil and Chile.

          •   To increase awareness of the concerns of African descendants in the Summit of the
              Americas, IAF, the OAS and Global Rights sponsored African Descendants and the
              Summit Process consisting of workshops in Nicaragua, Colombia, Brazil and
              Uruguay, where some 200 African descendants developed recommendations and an
              anti-discrimination declaration for the OAS General Assembly in Panama.

          •   IAF, Global Rights and the Centro de Mujer Panameña sponsored the African
              Descendent Regional Forum where some 50 government and civil society
              representatives engaged the OAS Secretary General who told them, “The fight
              against poverty must be waged through the fight against racial discrimination.”

          •   IAF sponsored IAF grantee representatives and other African descendants at the
              National Council of La Raza’s annual conference where they spoke on panels on
              cultural identity and emerging leadership.

Performance Goal 1.4: Explore and promote the community foundation model as a vehicle for
mobilizing resources.

      Performance Measure 1.4.1: Continued funding of community foundations.

      The IAF amended two grants to Mexican community foundations with additional funds in
      FY 2007. IAF-funded community foundations awarded 62 grants totaling $120,856. IAF’s
      earlier investment of $1.449 million in four community foundations on the U.S.-Mexico
      border enabled them to raise $1.616 million for grassroots development over and above their
      required contribution of counterpart. A prior year’s grant of $284,000 to develop a new
      Brazilian community foundation allowed the grantee to mobilize $1.4 million. Funded by a
      FY 2006 IAF grant, an Argentine group is currently determining the suitability of
      community foundations as a structure for funding grassroots development in that country.

      Performance Measure 1.4.2: Exchanges related to community foundations.

      IAF Mexican grantee Fundación del Empresariado Sonorense (FESAC) made two visits to
      grantee Fundación del Empresariado Chihuahuense (FECHAC) to learn about its primary
      revenue source: a voluntary “tax” on the state’s businesses that generates $8 million
      annually. Argentine grantee Fundación SES visited former Mexican grantee Fundación
      Comunitaria de Oaxaca and Brazilian grantee Instituto Rio to learn more about adapting the
      community foundation model.

Performance Goal 1.5: Support the mandate of the Summit of the Americas to create Opportunity
Zones.


                                               8
       Performance Measure 1.5.1: Travel grants awarded toward development of Opportunity
       Zones.

       To support the introduction of Opportunity Zones, modeled on U.S. Department of Housing
       and Urban Development’s (HUD) Empowerment Zones and Renewal Communities, the IAF
       funded 32 travel grants enabling delegations from Honduras, Nicaragua, Guatemala, and
       Argentina to visit HUD sites in Yakima, Wash. and Chattanooga, Tenn., among other
       locations, a first step in the development of Opportunity Zones. IAF also funded visits of
       personnel from U.S. zones to a proposed zone site in Atitlan, Guatemala. These exchanges
       resulted in (1) correspondence between the Guatemalan vice president and the OAS
       secretary general urging the adoption of Opportunity Zones as a broader Summit initiative;
       (2) an IAF-sponsored workshop on public-private partnerships in Honduras; (3) visits by
       IAF to key officials in the new Nicaraguan administration; and (4) a seminar organized by
       the Argentine Ministry of Institutional Reform for local officials from Argentina and
       elsewhere, featuring its delegation’s report. The IAF also promoted the Opportunity Zones
       initiative at the 2007 Mayors Conference referenced in 1.2.2 above. The IAF reports on
       progress to the U.S. Department of State and to the U.S. Mission to the OAS.

       Performance Measure 1.5.2: Grants to grassroots and nongovernmental organizations
       toward development of Opportunity Zones.

       IAF funded three proposals furthering the development of Opportunity Zones.


Strategic Plan Goal 2: Learning

The IAF will document effective projects and share the information with the development
community through scheduled publications and other learning activities. Resources available
through the IAF will include results data, independent in-depth evaluations and the findings of
contracted research.

Performance Goal 2.1: Through surveys, document the extent to which participants in IAF
learning activities find the knowledge shared applicable to their work.

       Performance Measure 2.1.1: Percentage of participants in IAF learning activities that
       agree or strongly agree that they will apply knowledge gained in IAF sponsored learning
       activities to their development work.

       The IAF evaluates only activities in which it plays a major role in the organization or
       content. Out of 400 respondents who completed evaluations at 14 workshops and seminars,
       87 percent agreed or strongly agreed that they would apply the knowledge gained to their
       development work. Respondents often said they planned to teach and to organize workshops
       and meetings on specific topics.

Performance Goal 2.2: Promote understanding of grassroots development through the IAF’s
flagship publications, through outreach by IAF staff and through otherwise sharing IAF’s
experience, including the results of evaluations and research.

                                               9
Performance Measure 2.2.1: Publication and distribution of IAF’s FY 2006 annual report
and its 2007 journal.

IAF printed its 2006 annual report and Grassroots Development 2007 in English and
Spanish and distributed them to subscribers and other interested readers. The publications
were posted to the IAF Web site in English, Spanish and Portuguese. The content of the
journal is described under 1.3.2. The enthusiastic reception included a request from the
library of the University of Illinois at Urbana-Champaign for 50 copies to accompany
exhibits in small-town libraries. “I've received your recent issue, and it is outstanding,”
wrote librarian Nelly Gonzales. “Its focus on African Descendants and Development
provides new insight of this silent minority of the region.” Professor Rolando Costa Picazo
of the Universidad de Buenos Aires wrote, “I found the coverage of the Afro-Argentines
particularly valuable, quite comprehensive and first rate. Congratulations to you and all
collaborators for a first-class journal.”

An unanticipated demand depleted the English version of Grassroots Development 2006 and
it was reprinted for future distribution.

The Colombian journal Economía y Desarrollo requested permission to translate and
publish Albert Hirschman’s article “The Principle of Conservation and Mutation of Social
Energy” from Grassroots Development 1983.

IAF distributed three newsletters electronically to more than 3,000 subscribers and posted
them on the IAF Web site. IAF also distributed news releases. As a result of this outreach, a
Corpus Christi television station interviewed the IAF representative accompanying a
Honduran delegation visiting in April and the IAF was cited in the June 17 Miami Herald in
“Latin American governments move against long-entrenched racism.” The IAF is
redesigning its Web site through the U.S. Government Printing Office to more effectively
convey its message by bringing new information to the home page and including a search
engine.

Performance Measure 2.2.2: Staff and grantee presentations at development fora and in
print.

IAF staff or grantee representatives discussed the IAF’s approach at over 20 events, some of
which are described below:

•   Georgetown University conference Indigenous Peoples and Economic Opportunity in
    Latin America, where IAF staff and representatives of former grantee El Ceibo,
    Bolivia’s largest exporter of chocolate and cacao, were panelists;
•   Conference on the business sector and development in Haiti organized by the Canadian
    International Development Agency (CIDA), Canadian Foundation for Latin America
    (FOCAL), the Inter-American Dialogue, the Carter Center and International Center for
    Government Authorities and Civil Society Leaders, held in Atlanta, where a
    representative of Fundación Empresarios por la Educación shared the results of
    RedEAmérica’s study on the education and grassroots development connection;
•   Strategies for Promoting Gender Equity: Lessons, Challenges and Opportunities co-
    sponsored by the IAF and the Woodrow Wilson International Center for Scholars, where
                                         10
          Angelina Aspuac of IAF Guatemalan grantee Asociación Femenina de Desarrollo de
          Sacatepéquez led a panel.

       Performance Measure 2.2.3: Annual in-depth evaluation of randomly selected IAF
       projects whose grant period has ended and the incorporation of relevant recommendations
       into IAF’s selection processes and monitoring procedures.

       IAF evaluated 11 IAF-supported microcredit projects in Mexico, Nicaragua and Peru. The
       findings will be examined with the Program Office for guidance to apply in future funding
       cycles.

       Performance Measure 2.2.4: Dissemination of the findings of studies on corporate social
       responsibility, civic opportunities for problem-solving, the economic and social integration
       of Latin Americans of African descent, and recycling programs as instruments for engaging
       excluded populations.

       An IAF-funded study of corporate social responsibility will be completed before the end of
       the fiscal year; findings are scheduled for publication in the 2008 issue of Grassroots
       Development. Asociación Afro Paraguaya Kamba Cua (AAPKC) completed its IAF-funded
       survey of the socio-economic issues affecting Afro-Paraguayans in July, although not in
       time for publication in Grassroots Development 2007 in which AAPKC and other grantees
       serving African descendants are profiled. In June, the researcher contracted to study IAF-
       funded community-based recycling programs joined the director of former IAF Colombian
       grantee Asociación Cooperativa de Recicladores de Bogotá and a representative of IAF
       Brazilian grantee Nova Pesquisa e Asessoria em Educação on a panel featured at the 2007
       Inter- American Mayors conference, at a session of the Civil Society Task Force and at an
       informal briefing at the International Finance Corporation. His findings will also appear in
       the 2008 Grassroots Development.

Performance Goal: 2.3: Work toward sharing and harmonizing award guidelines, information
collection and results analysis with institutions and networks of Latin American and Caribbean
donors dedicated to responsive grassroots development funding.

       Performance Measure 2.3.1: Collaborative relationships with organizations and processes
       that promote participatory development and democratic governance in the international
       development agenda: the Summit of the Americas, the Millennium Challenge Corporation,
       USAID, the Canadian International Development Agency, the World Bank, the Inter-
       American Development Bank and the Organization of the American States, among others.

       IAF’s Program Office staff met with representatives of the Millennium Challenge
       Corporation Policy Office and LAC Office staff to explore possibilities for collaboration in
       El Salvador, Honduras and Nicaragua. IAF funded two new projects in Nicaragua’s León-
       Chinandega corridor and conducted special outreach as a complement to the Millennium
       Challenge Corporation’s five-year investment of $175 million in land titling and
       infrastructure initiatives targeting rural economic development, thereby positioning local
       farmers to take advantage of opportunities generated by the MCC.

       The IAF is an active participant in the State Department Inter Agency Committee for the
                                                11
       Summit of the Americas and specifically supports Summit mandates related to African
       descendants, persons with disabilities and Opportunity Zones, as indicated in detail in 1.3.2
       and 1.5. The IAF’s collaboration on the Opportunity Zone initiative with the Department of
       Housing and Urban Development is documented in HUD’s report for the U.S. National
       Strategy for Public Diplomacy and Strategic Communication. In this connection, the IAF
       also maintains a productive relationship with the U.S. Delegation to the Organization of
       American States.

       IAF staff participated in a panel discussion at the Summit of the Americas Competitiveness
       Conference organized by Secretary of Commerce Carlos Gutierrez and Secretary of
       Education Margaret Spelling.

       IAF staff participated in a program for the Martin Luther King Fellows in Medellin,
       Colombia, supported by the U.S. Department of State, and funded travel grants enabling a
       wide range of individuals to attend.

       IAF staff met with the Grassroots Business Initiative Team, a program of the International
       Finance Corporation and the World Bank, to discuss partnerships in Brazil and next steps for
       collaboration with RedEAmérica.

Performance Goal 2.4: Continue refining the Grassroots Development Framework to reflect work
on the “intangible” results of IAF’s funding relevant to democratic engagement and deliberation.

       Performance Measure 2.4.1: The development of new indicators and revision of current
       indicators of democratic engagement and deliberation for incorporation into the Grassroots
       Development Framework and its manual.

       IAF has revised the GDF’s set of intangible indicators.

       Performance Measure 2.4.2: An IAF-sponsored review of new and revised indicators with
       other development agencies engaged in similar measurement efforts.

       Representatives of IAF and the Grassroots Business Initiative, described in 2.3.1, met to
       discuss the indicators used in RedEAmérica’s Impact Evaluation Tool, modeled on IAF’s
       GDF, in the context of each institution’s needs. Staff from the Office of the Under Secretary
       for Public Diplomacy of the Department of State met with IAF staff to discuss the findings
       of their evaluation of public diplomacy initiatives and expressed interest in IAF’s
       monitoring and evaluation system.

Performance Goal 2.5: Reinstate the IAF graduate fellowships program for students in American
universities specializing in topics related to grassroots development.

Performance Measure 2.5.1: Program structured and fellowships awarded.

       IAF announced its intention to reinstate its Grassroots Development Fellowships for Field
       Research at the Doctoral Level at the Latin American Studies Association Congress in
       March 2006. In November, IAF contracted the Institute for International Education (IIE) to
       administer the program. IAF and IIE developed application information and materials for
                                                12
       posting to the IIE Web site soon after. An academic review committee, assembled by IIE from
       a list of scholars submitted by IAF, considered the 52 applications received for the 2007
       competition and ranked the top applicants based on their academic credentials, the strength of
       their proposals and their potential contribution to grassroots development. Following the
       committee’s recommendations, the IAF president approved awards for 11 Ph.D. candidates
       from universities in the United States. Nine are U.S. citizens, one is Argentine and the other
       is Brazilian.


Strategic Plan Goal 3: Mobilize counterpart resources

The IAF will mobilize cash and in-kind contributions from beneficiary communities and other
sources. In addition to the counterpart resources the IAF requires every grantee to invest in its
projects, the IAF will encourage its grantees to obtain additional support toward their efforts beyond
the grant period.

Performance Goal 3.1: Promote greater involvement of the business sector in supporting
responsive grassroots development through RedEAmérica’s network of companies and corporate
foundations.

       Performance Measure 3.1.1: Increase RedEAmérica’s membership.

       RedEAmérica began requiring dues of its members in 2006. As a consequence, membership
       initially dropped from 57 companies and corporate foundations to 54. As of July, the
       network had 55 members, all of whom pay dues.

       Performance Measure 3.1.2: Increase the number of grants and grant supplements from
       RedEAmérica members supporting the self-help efforts of community organizations.

       Between January and July, RedEAmérica members reported supporting 110 grassroots
       development projects, compared with 41 projects in calendar 2006. All grantees will have
       reported by December; an updated figure will be ready in January 2008.

       Performance Measure 3.1.3: Increase the amount of support committed by members of
       RedEAmérica to community organizations, including funds contributed from the individual
       members’ own resources and mobilized from other donors.

       RedEAmérica does not yet have a mechanism for reporting the entire monetary commitment
       of each member by a defined fiscal year. The IAF is developing a system for measuring and
       verifying the results of the network’s investment, including resources contributed from
       members’ own resources or mobilized from other donors, and it should be operational in FY
       2008. With respect to the amount of support RedEAmérica members committed to
       community organizations in FY 2007, IAF can report the following:

       As the IAF requires its RedEAmérica partners to match its funding two-to one, five
       organizations, all parties to cooperative agreements with the IAF entered into in FY 2007,
       have committed $2,241,172 from their own and other resources for grassroots development.

                                                 13
       Ecuadorian RedEAmérica member Fundación Lann-Nobis, a party to a FY 2004 cooperative
       agreement to create a Grassroots Development Fund with $440,000 in support from the IAF,
       Brazilian RedEAmérica member Odebrecht S.A. and its own resources, mobilized another
       $1,545,000 from the Inter-American Development Bank and $413,000 from the regional
       government of Guayas for grassroots efforts in 2007.

       Colombian RedEAmérica members Fundación Corona, Fundación Smurfit and Fundación
       EPSA joined with the IAF to invest a total of $200,000 in the creation of Fondo Focus-Valle
       to support grassroots development projects in the Colombian departments of Cauca and
       Valle. Between FYs 2005 and 2007, the three corporate foundations increased Fondo Focus-
       Valle by an additional $237,069 from their own resources.

       RedEAmérica members have begun to develop funds by country known as “nodes.” The 11
       companies and foundations comprising the Brazilian node report investing $10 million in
       grassroots development projects benefiting 74,000 Brazilians in 40 localities since January.

       RedEAmérica is negotiating with the Inter-American Development Bank a matching-funds
       agreement valued at $8,042,350 that will support network activities and channel resources to
       grassroots projects through members in Argentina, Brazil, Chile, Colombia, Ecuador,
       Mexico and Peru.

       Performance Measure 3.2.1: Amount of in-kind and cash resources that grantees are able
       to mobilize from within or obtain from without to further project activities and their future
       efforts.

       Based on verified reports received by July, IAF grantees raised more than $500,000 over
       and above their commitment of counterpart contributions required for an award. All grantees
       will have reported by December 2007; an updated figure for FY 2007 will be available by
       spring 2008.

Performance Goal 3.3: Collaborate with U.S. and other donors in a broad variety of arrangements.

       Performance Measure 3.3.1: To encourage contributions from private U.S. donors to IAF-
       funded projects, disseminate an IRS letter ruling that the IAF’s grantmaking procedures
       satisfy IRS expenditure responsibility requirements for U.S. foundations.

       The IAF completed its research into the implications of the Patriot Act for U.S. donors to
       foreign organizations.

       Performance Measure 3.3.2: Extension of the coverage of the partnership between the
       IAF and the International Guarantee Fund (IGF) of Switzerland (1) broadening the criteria
       for participation to include organizations not solely dedicated to credit and (2) by expansion
       beyond Central America.

       The Latin American International Guarantee Fund (LAIGF), a partnership formed in 2005
       between the IAF and the IGF to serve microfinance institutions in Central America,
       increased its initial capital of $400,000 to $600,000 in 2006. In FY 2007 the IAF awarded
                                                 14
       LAIGF an additional $355,000, of which $300,000 capitalized the fund and the rest was
       allocated to a risk reserve account and operating expenses. A recent low-interest rate loan
       from the Spanish government will provide $2 million in additional funding. The fund is
       currently considering applications from proponents outside of Central America but has not
       yet expanded beyond the region.

Performance Goal 3.4: Identify and support evolving transnational relationships that encourage
immigrant organizations to aid in the sustainable and responsive grassroots development of their
home communities.

       Performance Measure 3.4.1: Continued collaboration with immigrant groups toward
       identifying financial and technical resources for supporting development projects in their
       communities of origin.

       IAF staff maintains relationships with Mexican, Salvadoran and umbrella immigrant
       organizations that support development projects in their communities of origin. Several IAF
       grantees operate programs to reduce remittance transfer costs and boost the development
       impact of funds that workers send to their families. Some of these “transnational” projects,
       defined as involving collaboration between migrants and their hometowns, have concluded
       or will soon conclude. Through discussions, monitoring visits and reviews of reports and
       results, the IAF has been working to extract lessons and to promote activities that bring
       grantees together with migrant associations, public officials and others to build on the
       experience. IAF staff also shares observations with international donors, with the goal of
       attracting more new resources and improving the effectiveness of the investment. IAF staff
       worked with several U.S. foundations to promote coordination and explore opportunities for
       co-funding and with the Inter-American Dialogue, the Council of Mexican Federations and
       grantees in Central America and Mexico to co-sponsor events analyzing migration,
       remittances and their impact on community development.

       Performance Measure 3.4.2: Continued dissemination of the results of IAF’s initiatives in
       transnational linkages.

       IAF staff spoke at events in New York, Los Angeles, Washington, D.C., and the Dominican
       Republic about the IAF’s transnational grant making experience. Staff and grantees shared
       experiences with the Council of Foundations, Hispanics in Philanthropy, the Inter-American
       Dialogue and the Council of Mexican Federations, among other organizations. IAF staff and
       contractors in El Salvador organized a series of grantee meetings to exchange ideas and
       practices for drawing more transnational resources into grassroots development. Requests
       for the IAF’s 2006 Grassroots Development, which focuses on transnational communities
       and development, depleted the stock; the journal was reprinted and continues to be
       distributed. Finally, the IAF and the Inter-American Dialogue sponsored a dinner meeting at
       the U.S. Capitol where members of Congress and IAF staff discussed the complexities of
       migration and development.

       Performance Measure 3.4.3: Expanded community foundation activities on the U.S.-
       Mexico border through promotion of cross-border philanthropy.


                                                15
       An IAF staff member works with the Executive Committee Border Philanthropy Partnership
       that is planning to create a binational grantmaking organization in 2008. Two community
       foundations in Mexico are developing monitoring and evaluation systems to assess the
       impact of their grants based on their experience with IAF’s Grassroots Development
       Framework. IAF facilitated a session on grassroots development grantmaking at the Border
       Philanthropy Partnership’s annual meeting of border foundations.

       Performance Measure 3.4.4: Research on effective grassroots development assistance
       involving transnational communities.

       IAF staff participated in an event hosted by the Inter-American Dialogue and the World
       Bank to examine current policy research on family remittances sent to Latin America and
       the Caribbean. The IAF reported on initial lessons of IAF grants and discussed the research
       on and priorities of Latin American governments and international agencies dealing with
       remittance flows. IAF representatives subsequently met with researchers to identify specific
       areas of study for possible collaboration. The findings of research on transnational
       indigenous networks, funded by an IAF grant to the Latin American Studies Association
       (LASA) for its Otros Saberes project, were shared in September in sessions at and
       immediately following the LASA Congress, as noted in 1.2.3, supra,.

       Performance Measure 3.4.5: Meetings bringing together representatives of IAF grantees
       to share experiences.

       IAF travel grants and other support enabled more than 15 grantee representatives, IAF field
       contractors from Mexico and El Salvador, and other interested individuals from Honduras
       and Nicaragua to participate in the First Latin American Migrant Community Summit in
       Morelia, Mexico, and share their ideas on how collective remittances might be more
       effectively invested.

       The IAF supported the attendance of women leaders at IV Encuentro de Salvadoreños en el
       Mundo in El Salvador, which attracted Salvadorans from around the world to discuss
       remittances and migration and other social and development issues. The women’s
       participation is described in detail in Grassroots Development 2007.

Strategic Plan Goal 4: Operational Efficiency

The Foundation will make internal operations as cost-effective as possible. It will seek to minimize
its operational expenses as a percentage of its program obligations and reduce the time required to
process proposals, select projects to be supported and obligate funds.

Performance goal 4.1: Reduce overhead, notwithstanding government-wide requirements that
often limit our control of expenditures, to make more resources available for development activities
that improve the quality of life of poor communities.

       Performance Measure 4.1.1: Percentage of IAF’s budget spent on overhead.

       The IAF estimates it will spend 28.1 of its budget on overhead in FY 2007, versus 28.9
                                                16
       percent in FY 2006.

Performance Goal 4.2: Reduce the time lapsed between receipt of a proposal and award of a
grant.

       Performance Measure 4.2.1: Time spent on review of proposals.

The time spent in FY 2007 on the review and approval of grant proposals remained 11 months, as in
FY 2006, down from 15 months in FY 2005.

Identification of Key Factors that Could Affect Achievement
of General Goals and Objectives


The IAF works in poor, often remote, areas lacking infrastructure, vulnerable to health problems,
weather and natural disasters, fragile agriculturally, and unstable politically. International
phenomena such as markets, wars, and foreign investment also may affect planned activities. Yet
only rarely do IAF-funded projects fail as a result of such factors.

Federal Managers’ Financial Integrity Act and the Federal Financial Management
Improvement Act

In accordance with applicable guidelines, the IAF submitted its Fiscal Year 2007 Assurances
Statement relating to requirements imposed by Federal Managers’ Financial Integrity Act (FMFIA)
and the Federal Financial Management Improvement Act (FFMIA) to the USAID Office of the
Inspector General.

The IAF, in conjunction with BPD, analyzed and evaluated its systems of management control and
financial management under the FMFIA for the year ended September 30, 2007, according to the
procedures and standards prescribed by the Office of Management and Budget and the Government
Accountability Office. Based on this evaluation we found that our systems of management controls
provide reasonable assurance that: programs are free from waste, fraud and mismanagement; laws
and regulations are followed; our continuity of operations planning in critical areas is sufficient to
reduce risk to reasonable levels; and our performance information is reliable as defined in OMB
Circular A-11, Section 232.10. We further found that the IAF’s financial management systems, in
conjunction with those of BPD, meet the Federal government’s management system objectives of
usefulness, timeliness, reliability and completeness, comparability and consistency, and efficiency
and economy. As a result, we conclude that there is reasonable assurance that the Inter-American
Foundation complies with Sections 2 and 4 of the FMFIA.

We have no open or new material weakness or nonconformance to report; we have not closed any
material weakness or nonconformance during fiscal year 2007; and we do not have any open
reportable conditions or second tier issues.

In addition, we have found that, for the year ended September 30, 2007, the Inter-American
Foundation’s administrative and fiscal accounting systems substantially comply with the
requirements of the FFMIA.


                                                 17
Analysis of Financial Statements and Stewardship Information
Systems, Controls, and Legal Compliance

Net Cost of Core Functions

The activity reported in the Statement of Net Cost reflects the resources used by the IAF during the
year. Program costs of $27,220,538 reflected an increase of $2,554,973 in resources used from the
fiscal 2006 amount of $24,665,565.

Personnel compensation and benefits increased from $4,781,144 in fiscal 2006 to $4,972,012 in
fiscal 2007 reflecting an increase of $190,868. In fiscal 2007, program-related Contractual Services
used $4,400,283 of IAF resources. The difference of $389,608 from fiscal 2006, which reported
$4,010,675 in resources used, reflects an increase of approximately 14 percent. See pie chart below:



                              FY07 NET COST OF IAF CORE FUNCTIONS


                                            Operating
                                            Services              Personnel
                       Other Program          3%                    18%
                         Activities
                          16%
                                                                           Rent
                                                                           3%




                                              Grants
                                               60%



                          Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury and other financing sources for fiscal 2007 and
2006 were $34,614,690 and $35,137,832, respectively. The difference of $523,142 is due to a net
increase in the Social Progress Trust Fund (SPTF) obligations in FY-07 and a cancellation of
$228,571 in fiscal 2001/2002 appropriated funds, which expired in FY-07. The SPTF agreement
was amended during fiscal 2002 to provide all remaining funds to the IAF until they are exhausted,
in approximately 13 years. See Note 1 in the Financial Statements for funding source and Note 15
for the end-of-year net position.




                                                18
                              Limitations on Financial Statements

These financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3513. While the statements have
been prepared from the books and records of the entity in accordance with the formats prescribed by
the Office of Management and Budget, the statements are in addition to the financial reports used to
monitor and control budgetary resources which are prepared from the same books and records.




                                                19
gka, P.C.                                                   Certified Public Accountants | Management Consultants



1015 18th Street, NW                Independent Auditors’ Report on Financial Statements
      Suite 200
  Washington, DC
        20036             Office of the Inspector General
                          U.S. Agency for International Development
  Phone: 202-857-1777     Washington, D.C.
   Fax: 202-857-1778
Website: www.gkacpa.com
                          We have audited the financial statements (balance sheets and the related
                          statements of net cost, changes in net position, and budgetary resources,
                          hereinafter referred to as “financial statements”) of the Inter-American
                          Foundation (IAF), a U.S. Government Corporation, as of September 30, 2007
                          and 2006. These financial statements are the responsibility of the management
                          of the IAF. Our responsibility is to express an opinion on these financial
                          statements based on our audit.

                          We conducted our audit in accordance with auditing standards generally
                          accepted in the United States of America; the standards applicable to financial
                          audits contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and the Office of Management and Budget
                          Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.
                          Those standards require that we plan and perform the audit to obtain
                          reasonable assurance about whether the financial statements are free of
                          material misstatement. An audit includes examining, on a test basis, evidence
                          supporting the amounts and disclosures in the financial statements. An audit
                          also includes assessing the accounting principles used and significant estimates
                          made by management, as well as evaluating the overall financial statement
                          presentation. We believe that our audit provides a reasonable basis for our
                          opinion.

                          In our opinion, the financial statements referred to above present fairly, in all
                          material respects, the financial position of the IAF as of September 30, 2007
                          and 2006, and its net costs, changes in net position, and budgetary resources
                          for the years then ended in conformity with generally accepted accounting
                          principles.

                          Our audits were conducted for the purpose of forming an opinion on the
                          financial statements referred to in the first paragraph of this report as a whole.
                          The information presented in IAF Management’s Discussion and Analysis
                          (Overview) section is not a required part of the financial statements but is
                          supplementary information required by OMB Circular No. A-136, Financial
                          Reporting Requirements.




                                                                 Member of the American Institute of Certified Public Accountants
                                                            20
Although we have read the information presented, such information has not been subjected to the
auditing procedures applied in the audits of the financial statements and, accordingly, we express
no opinion on it.

In accordance with Government Auditing Standards, we have also issued reports dated
November 1, 2007 on our consideration of the IAF's internal control over financial reporting, and
on our tests of its compliance with certain provisions of applicable laws and regulations. These
reports are an integral part of an audit performed in accordance with Government Auditing
Standards, and, in considering the results of the audit, these reports should be read in conjunction
with this report.


/s/

GKA P.C.

November 1, 2007




                                                21
                              INTER-AMERICAN FOUNDATION
                                       BALANCE SHEETS
                                As of September 30, 2007 and 2006

                                                                             2007             2006
Assets
  Intragovernmental
     Fund balance with Treasury (Note 2)                               $ 34,614,690      $ 35,137,832
     Other                                                                   33,125             5,342

   Total intragovernmental                                               34,647,815          35,143,174

   Account receivable, net (Note 4)                                               895               427
   General property, plant and equipment, net (Note 5)                            183               729
   Other                                                                      111,449         3,206,128

Total assets                                                           $ 34,760,342      $ 38,350,458

Liabilities
  Intragovernmental
     Accounts payable (Note 6)                                          $     165,594    $      89,547
     Other (Note 6)                                                            35,037           29,005

   Total intragovernmental                                                    200,631          118,552

   Accounts payable (Note 6)                                                  795,516          395,226
   Other (Note 6)                                                             619,080          477,245

Total liabilities                                                           1,615,227          991,023


Net Position
  Unexpended appropriations – Other Funds                                17,128,211          17,898,210
  Cumulative results of operations
      Earmarked funds (Note 15)                                          16,328,662          19,767,528
      Other funds                                                          (311,758)          (306,303)

   Total cumulative results of operations                                   16,016,904       19,461,225

Total net position                                                       33,145,115          37,359,435

Total liabilities and net position                                     $ 34,760,342      $ 38,350,458




               The accompanying notes are an integral part of these financial statements.
                                                22
                        INTER-AMERICAN FOUNDATION
                           STATEMENTS OF NET COST
                  For the Years Ended September 30, 2007 and 2006


                                                                2007              2006
Program Costs
  Foreign Grant Program:
     Gross costs (Note 9)                                   $ 27,220,538     $ 24,665,565
     Less: Earned Revenue                                              -                -

Net Cost of Operations                                      $ 27,220,538     $ 24,665,565




         The accompanying notes are an integral part of these financial statements.
                                          23
                              INTER-AMERICAN FOUNDATION
                       STATEMENTS OF CHANGES IN NET POSITION
                        For the Years Ended September 30, 2007 and 2006

                                                                2007                           2006
                                             Earmarked       All Other     Consolidated     Consolidated
                                               Funds          Funds           Total            Total

Cumulative Results of Operations
Beginning Balances                           $19,767,528    $ (306,303)    $ 19,461,225     $ 23,361,064


Budgetary Financing Sources
Appropriations Used                                    -     19,888,172     19,888,172        17,421,583
Nonexchange Revenue                                    -              -              -         3,062,440
Donations and forfeitures of cash and cash
  equivalents                                         50              -             50                  -
Other                                                  -      3,564,918      3,564,918                  -

Other Financing Sources (Non-Exchange)
Imputed financing sources (Note 11)                    -        323,077        323,077           281,703


Total financing sources                               50     23,776,167      23,776,217       20,765,726
Net cost of operations                        (3,438,916)   (23,781,622)    (27,220,538)     (24,665,565)

Net changes                                   (3,438,866)        (5,455)     (3,444,321)       (3,899,839)

Ending balance                                16,328,662       (311,758)    16,016,904        19,461,225

Unexpended Appropriations
Beginning balance                                      -     17,898,210     17,898,210        16,062,880

Budgetary Financing Sources
Appropriations received                                -     19,346,743      19,346,743       19,500,000
Other adjustments                                      -       (228,571)       (228,571)        (243,087)
Appropriations Used                                    -    (19,888,171)    (19,888,171)     (17,421,583)

Total Unexpected Appropriations                        -     17,128,211     17,128,211        17,898,210

Net position                                 $16,328,662    $16,816,453    $ 33,145,115     $ 37,359,435




               The accompanying notes are an integral part of these financial statements.
                                                 24
                       INTER-AMERICAN FOUNDATION
                 STATEMENTS OF BUDGETARY RESOURCES
                 For the Years Ended September 30, 2007 and 2006

                                                               2007            2006
Budgetary Resources:
  Unobligated balance brought forward, October 1:           $ 10,304,165    $ 10,731,352
  Recoveries of prior year unpaid obligations                  1,009,833       2,583,454
                                                              11,313,998      13,314,806
   Budget authority
      Appropriation                                           19,346,743      19,500,000
   Spending authority from offsetting collections
      Earned
         Collected                                             3,564,968       3,062,440
                                                              22,911,711      22,562,440
Permanently not available                                       (228,571)       (243,087)

Total Budgetary Resources                                   $ 33,997,138    $ 35,634,159

Status of Budgetary Resources:
   Obligations incurred
      Direct                                                $ 26,408,290    $ 25,329,994
   Unobligated balance apportioned                             1,882,079       9,638,846
   Unobligated balances not available                          5,706,769         665,319

Total status of budgetary resources                         $ 33,997,138    $ 35,634,159

Change in Obligated Balance:
Obligated balance, net
   Unpaid obligations, brought forward, October 1           $ 24,833,668    $ 25,874,752
Obligations incurred net                                      26,408,290      25,329,994
Less: Gross outlays                                          (23,206,281)    (23,787,624)
Less: Recoveries of prior year unpaid obligations, actual     (1,009,834)     (2,583,454)

Obligated balance, net, end of year                         $ 27,025,843    $ 24,833,668

Net Outlays:
  Gross outlays                                             $ 23,206,281    $ 23,787,624
  Less: Offsetting collections                                (3,564,968)     (3,062,440)

Net Outlays                                                 $ 19,641,313    $ 20,725,184




       The accompanying notes are an integral part of these financial statements.
                                             25
                           INTER-AMERICAN FOUNDATION
                         NOTES TO FINANCIAL STATEMENTS
                          September 30, 2007 and 2006



A. Basis of Presentation

The financial statements have been prepared to report the financial position, net cost of
operations, changes in net position, and the status and availability of budgetary resources of
the Inter-American Foundation (IAF). The statements are a requirement of the Chief
Financial Officers Act of 1990, the Government Management Reform Act of 1994, the
Accountability of Tax Dollars Act of 2002 and the OMB Bulletin Number 07-04, Audit
Requirements for Federal Financial Statements. They have been prepared from, and are fully
supported by, the books and records of the IAF in accordance with the hierarchy of
accounting principles generally accepted in the United States of America, standards approved
by the principals of the Federal Accounting Standards Advisory Board (FASAB), OMB
Circular A-136, Financial Reporting Requirements of Agency Financial Statements and IAF
accounting policies which are summarized in this note. These statements, with the exception
of the Statement of Budgetary Resources, are different from financial management reports,
which are also prepared pursuant to OMB directives that are used to monitor and control the
IAF’s use of budgetary resources.

The statements consist of the Balance Sheet, Statement of Net Cost, Statement of Changes in
Net Position, and the Statement of Budgetary Resources. In accordance with OMB Circular
A-136, the financial statements and associated notes are presented on a comparative basis.
Unless specified otherwise, all amounts are presented in dollars.

B. Reporting Entity

The IAF, a U.S. government corporation, was established pursuant to part IV of the Foreign
Assistance Act of 1969 (22 U.S.C. 290f (a)). The IAF provides grants to support the
initiatives of non-governmental and community-based organizations in Latin America and the
Caribbean to implement their economic development and poverty reduction projects.

The management of the IAF is vested in a nine-person Board of Directors appointed by the
President of the United States. Six Board members are drawn from the private sector and
three from officers or employees of agencies of the U.S. Government concerned with Inter-
American activities. The Board appoints the IAF’s president who acts as the chief executive
officer.




                                             26
                           INTER-AMERICAN FOUNDATION
                         NOTES TO FINANCIAL STATEMENTS
                          September 30, 2007 and 2006

Note 1. Summary of Significant Accounting Policies (continued)
C. Budgets and Budgetary Accounting

Congress enacts appropriations to permit the IAF to incur obligations for authorized purposes.
In fiscal years 2007 and 2006, the IAF was accountable for the Social Progress Trust Fund
(SPTF), Gift Fund, and General Fund appropriations. The IAF recognizes budgetary
resources as assets when cash (funds held by the U.S. Treasury) is made available
through the Department of Treasury General Fund warrants and transfers from the Inter-
American Development Bank (IDB).

D. Basic of Accounting

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when
liabilities are incurred, without regard to receipt or disbursement of cash. Budgetary
accounting facilitates compliance with legal constraints and controls over the use of federal
funds.

To assist OMB in recommending and publishing comprehensive accounting standards and
principles for agencies of the Federal Government, the Secretary of the Treasury, the
Comptroller of the United States, the Director of OMB, and the Joint Financial Management
Improvement Program established the FASAB in 1990. The American Institute of Certified
Public Accountants Council designated FASAB as the accounting standards authority for
Federal government entities.

E. Revenue and Other Financing Sources

The IAF’s grant program is funded by appropriation from the budget of the United States,
agreement with the Inter-American Development Bank (IDB) covering the SPTF, and
donations from the private sector. No-year appropriations remain available until expended,
while multi-year appropriations are available for the period prescribed by the applicable
statute. Appropriations are used, within statutory limits, for programmatic, operating and
capital expenditures for essential personal property. Appropriations are recognized as
revenues at the time the related program or administrative expense are incurred.
Appropriations expended for capitalized property and equipment are recognized as expense
when an asset is consumed in operations.

The IAF has an agreement with the IDB to receive funds from the SPTF to finance part of the
IAF’s grant program. The IDB is an international financial organization established to
promote the economic and social development of member countries. The United States’
participation in IDB is authorized and governed by the Inter-American Development Bank
Act (22 U.S.C. 283). Within IDB, the United States established the SPTF in 1961 and
provided appropriations to SPTF through 1964. IDB was designated as the administrator




                                             27
                            INTER-AMERICAN FOUNDATION
                          NOTES TO FINANCIAL STATEMENTS
                           September 30, 2007 and 2006

Note 1. Summary of Significant Accounting Policies (continued)
for the SPTF and committed the original SPTF appropriations to loans. Repayments of these
loans are recycled by the IDB in accordance with the original agreement and subsequent
provision for additional loans, technical cooperation programs, and financing of the Inter-
American Foundation program.

Pursuant to a 1973 amendment to the Foreign Assistance Act of 1961, IDB provides funds to
finance social development projects. These funds are made available in U.S. dollars upon
request by the IAF, subject to denomination availability and exchange controls. In 2002, the
SPTF agreement was amended to make available all remaining funds until exhausted.

The IAF recognizes as an imputed financing source the amount of accrued pension and post-
retirement benefit expenses for current employees paid on its behalf by the Office of
Personnel Management (OPM).

F. Taxes

The IAF, as a Federal entity, is not subject to federal, state or local income taxes, and,
accordingly, no provision for income taxes has been recorded in the accompanying financial
statements.

G. Fund Balances with Treasury

The U.S. Treasury processes cash receipts and disbursements. Funds with the Department of
the Treasury primarily represent appropriated funds and SPTF collections that are available to
pay current liabilities and finance authorized purchase commitments and SPTF grants. The
IAF does not maintain cash in commercial bank accounts or foreign currency balances.
Foreign currency payments are made either by Treasury or the Department of the State and
are reported by the IAF in U.S. dollar equivalents. See Note 2 for additional information.

H. Accounts Receivable

Accounts receivable consists of amounts owed to the IAF by other Federal agencies and the
public. Amounts due from Federal agencies are considered fully collectible. Accounts
receivable from the public include reimbursements from employees. An allowance for
uncollectible accounts receivable from the public is established when either (1) based upon a
review of outstanding accounts and the failure of all collection efforts, management
determines that collection is unlikely to occur considering the debtor’s ability to pay, or (2) an
account for which no allowance has been established is submitted to the Department of the
Treasury for collection, which takes place when it becomes 180 days delinquent. See Note 4
for additional information.




                                               28
                           INTER-AMERICAN FOUNDATION
                         NOTES TO FINANCIAL STATEMENTS
                          September 30, 2007 and 2006

Note 1. Summary of Significant Accounting Policies (continued)
I. General Property, Plant, and Equipment, Net

The IAF’s property, plant and equipment are recorded at original acquisition cost and are
depreciated using the straight-line method over the estimated useful life of the asset. Major
alterations and renovations are capitalized, while maintenance and repair costs are charged to
expense as incurred. The IAF’s capitalization threshold is $50,000 for individual purchases
and $500,000 for bulk purchases. The useful life classifications for capitalized assets are as
follows:

                            Description                  Useful Life (years)
                 ADP equipment                                   3
                 Office furniture and equipment                  10

J. Advances and Prepayments

Advance payments are generally prohibited by law. There are some exceptions, such as
reimbursable agreements, subscriptions and payments to contractors and employees.
Payments made in advance of the receipt of goods and services are recorded as advances or
prepaid charges at the time of prepayment and recognized as expenses when the related goods
and services are received.

K. Liabilities

Liabilities represent the amount of monies or other resources likely to be paid by the IAF as a
result of transactions or events that have already occurred. No liability can be paid, however,
absent an appropriation or SPTF funding. Liabilities for which an appropriation has not been
enacted or SPTF funds received are, therefore, classified as not covered by budgetary
resources. There is no certainty that the appropriation will be enacted. Additionally, the
Government, acting in its sovereign capacity, can abrogate liabilities. Liabilities not covered
by budgetary resources on the Balance Sheet are equivalent to amounts reported as
components requiring or generating resources on the Reconciliation of Net Cost to Budget.

L. Accounts Payable

Accounts payable consists of amounts owed to other federal agencies and trade accounts
payable.




                                              29
                           INTER-AMERICAN FOUNDATION
                         NOTES TO FINANCIAL STATEMENTS
                          September 30, 2007 and 2006

Note 1. Summary of Significant Accounting Policies (continued)

M. Annual, Sick, and Other Leave

Annual leave is accrued as it is earned, and the accrual is reduced as leave is taken. The
balance in the accrued leave account is adjusted to reflect current pay rates. Liabilities
associated with other types of vested leave, including compensatory, restored leave, and
sick leave in certain circumstances, are accrued at year-end, based on the latest pay rates and
unused hours of leave. Funding will be obtained from future financing sources to the extent
that current or prior year appropriations are not available to fund annual and other types of
vested leave earned but not taken. Nonvested leave is expensed when used. Any liability for
sick leave that is accrued but not taken by a Civil Service Retirement System (CSRS) covered
employee is transferred to the Office of Personnel Management upon the retirement of that
individual. No credit is given for sick leave balances upon the retirement of Federal
Employee’s Retirement System (FERS) covered employees.

N. Retirement Plans

The IAF’s employees participate in the Civil Service Retirement System (CSRS) or the
Federal Employees’ Retirement System (FERS). FERS was established by the enactment of
Public Law 99-335. Pursuant to this law, FERS and Social Security automatically cover most
employees hired after December 31, 1983. Employees hired before January 1, 1984 elected to
join either FERS and Social Security or remain in CSRS.

The IAF recognizes the imputed cost of pension and other retirement benefits during the
employees’ active years of service. OPM actuaries determine pension cost factors by
calculating the value of pension benefits expected to be paid in the future and communicates
these factors to the IAF for current period expense reporting. OPM also provides information
regarding the full cost of health and life insurance benefits. The IAF recognized the offsetting
revenue as imputed financing sources to the extent these expenses will be paid by OPM.

All employees are eligible to contribute to the Thrift Savings Plan (TSP). For those employees
participating in the FERS, a TSP account is automatically established and the IAF makes a
mandatory 1 percent contribution to this account. In addition, the IAF makes matching
contributions, ranging from 1 to 4 percent, for FERS eligible employees who contribute to
their TSP accounts. In accordance with Federal employee benefit policies, matching
contributions are not made to the TSP accounts established by CSRS employees.

FERS employees and certain CSRS reinstatement employees are eligible to participate in the
Social Security program after retirement. In these instances, the IAF remits the employer’s
share of the required contribution. The IAF's contribution to the employee pension plan was
$481,473 for fiscal year 2007 and $440,474 for fiscal year 2006. In addition, the IAF costs
for health and life insurance were $412,238 for fiscal year 2007 and $391,618 for fiscal year
2006.



                                              30
                            INTER-AMERICAN FOUNDATION
                          NOTES TO FINANCIAL STATEMENTS
                           September 30, 2007 and 2006

Note 1. Summary of Significant Accounting Policies (continued)

The IAF does not report on its financial statements information pertaining to the retirement
plans covering its employees. Reporting amounts such as plan assets, accumulated plan
benefits, and related unfunded liabilities, if any, is the responsibility of the OPM.

O. Grant Disbursements and Administrative Expenses

Grant disbursements include payments in advance of performance under contractual
obligations. Evidence of performance is determined by review of periodic expenditure
reports. All of the IAF expenditures for grants over $35,000 are independently verified using
the IAF’s audit guidelines. The IAF’s administrative expenses are funded solely by
appropriated funds.

P. Use of Estimates

Management has made certain estimates when reporting assets, liabilities, revenue, and
expenses, and in the note disclosures. The preparation of financial statements in conformity
with generally accepted accounting principles requires management to make assumptions that
affect the reported amounts of assets and liabilities and disclosure of contingent assets and
liabilities at the date of the financial statements and the reported amounts of revenues and
expenses during the reporting period. Actual results could differ from those estimates.

Q. Imputed Cost/Financing Sources

Federal Government entities often receive goods and services from other Federal Government
entities without reimbursing the providing entity for all the related costs. In addition, Federal
Government entities also incur costs that are paid in total or in part by other entities. An
imputed financing source is recognized by the receiving entity for costs that are paid by other
entities. The IAF recognized imputed costs and financing sources in fiscal years 2007 and
2006 to the extent directed by OMB.

R. Non-Entity Assets and Liabilities

The IAF did not hold any Non-Entity assets or liabilities as of September 30, 2007 and 2006.




                                               31
                            INTER-AMERICAN FOUNDATION
                          NOTES TO FINANCIAL STATEMENTS
                           September 30, 2007 and 2006

Note 1. Summary of Significant Accounting Policies (continued)
S. Contingencies

Liabilities are deemed contingent when the existence or amount of the liability cannot be
determined with certainty pending the outcome of future events. The IAF recognizes
liabilities, in the accompanying balance sheet and statement of net cost, when it is both
probable and can be reasonably estimated. The IAF discloses contingent liabilities in the
notes to the financial statements when the conditions for liability recognition are not met or
when a loss from the outcome of future events is more than remote. In some cases, once
losses are certain, payments may be made from the Judgment Fund maintained by the U.S.
Treasury rather than from the amounts appropriated to the IAF for agency operations.
Payments from the Judgment Fund are recorded as an “Other Financing Source” when made.
There are no contingencies that require disclosure.

T. Expired Accounts and Cancelled Authority

Unless otherwise specified by law, annual authority expires for incurring new obligations at
the beginning of the subsequent fiscal year. The account in which the annual authority is
placed is called the expired account. For five fiscal years, the expired account is available for
expenditure to liquidate valid obligations incurred during the unexpired period. Adjustments
are allowed to increase or decrease valid obligations incurred during the unexpired period but
not previously reported. At the end of the fifth expired year, the expired account is cancelled.

U. Reclassification

Certain fiscal year 2006 balances have been reclassified, retitled, or combined with other
financial statement line items for consistency with current year presentation. Under SFFAS 7,
OMB has reclassified the Statement of Financing to be presented in a note as Reconciliation
of Net Cost of Operations to Budget.


Note 2. Fund Balance with Treasury
Entity fund balances include amounts that are available to pay liabilities and to finance
authorized purchase and grant commitments. Restricted unobligated fund balances represent
the amount of appropriations for which the period of availability for obligation has expired.
These balances are available for upward adjustments of obligations incurred only during the
period for which the appropriation was available for obligation or for paying claims
attributable to the appropriations.




                                               32
                          INTER-AMERICAN FOUNDATION
                        NOTES TO FINANCIAL STATEMENTS
                         September 30, 2007 and 2006

Note 2. Fund Balance with Treasury (continued)
                                                             2007              2006
 Fund Balances

 Appropriated fund                                       $ 18,286,028     $ 16,509,112
 Gift fund                                                     33,694           75,000
 Social progress trust fund (SPTF)                         16,294,968       18,553,720

                                                         $ 34,614,690     $ 35,137,832

 Status of Fund Balance with Treasury

 Unobligated balance includes SPTF
   Available                                             $    1,882,079   $     9,638,846
   Unavailable                                                5,706,769           665,318
 Obligated balance not yet disbursed                         27,025,842        24,833,668

                                                         $ 34,614,690     $ 35,137,832

Note 3. Advances and Prepayments
Grant distributions are recognized as an expense at the time of payment. This is an
accounting change that replaces the amortization of Grant payments over a 6 to 8 month
period. Prepayments are also made to select government agencies and vendors in advance of
receiving the goods or service. Advances and prepayments are detailed below:


                                                              2007             2006

  Prepayments other than grant advances                      $ 144,574     $      78,231
  Grant advances                                                     -         3,127,897

                                                             $ 144,574     $ 3,206,128

Note 4. Accounts Receivable
Accounts receivable balances as of September 30, 2007 and 2006 were $895 and $427,
respectively. Accounts receivable from the public are shown net of allowances for
uncollectible amounts.




                                           33
                           INTER-AMERICAN FOUNDATION
                         NOTES TO FINANCIAL STATEMENTS
                          September 30, 2007 and 2006

Note 5. Property, Plant and Equipment
The balance of Property, Plant, and Equipment is as follows:

                                                            September 30, 2007

                                              Acquisition     Accumulated           Net
                                                 Cost         Depreciation       Book Value

     ADP equipment                        $         27,000 $         27,000   $            -
     Office furniture                               37,987           37,804              183

                                          $         64,987 $         64,804      $       183


                                                            September 30, 2006

                                              Acquisition      Accumulated          Net
                                                 Cost          Depreciation      Book Value

     ADP equipment                        $         27,000 $         27,000   $            -
     Office furniture                               41,072           40,343              729

                                          $         68,072 $         67,343      $       729

Note 6. Liabilities
The accrued liabilities for the IAF are comprised of program expense accruals, payroll
accruals, and unfunded annual leave earned by employees. Program expense accruals
represent expenses that were incurred prior to year-end but were not paid. Similarly, payroll
accruals represent payroll expenses that were incurred prior to year-end but were not paid.

                                   Schedule of Liabilities

                                                                         2007           2006
 Liabilities covered by budgetary resources
  Intragovernmental
    Accounts payable                                                   $ 165,594      $ 89,547
    Payroll taxes payable                                                 35,037        29,005

   Total intragovernmental                                               200,631       118,552




                                               34
                           INTER-AMERICAN FOUNDATION
                         NOTES TO FINANCIAL STATEMENTS
                          September 30, 2007 and 2006

Note 6. Liabilities (continued)
                                                               2007                2006

   Program expenses
    Rent                                                          14,207               21,662
    Staff travel, training, printing, equipment
       maintenance, supplies                                      10,967               14,190
    Postage and freight                                                -                3,322
    Maintenance of equipment                                      12,441               46,958
    Communications and mail services                               3,702                4,168
    Supplies & non-capitalized equipment                           6,706               47,964
    Local advisory service contracts for grantees                377,347               39,747
    Grant audits                                                 145,624              109,752
    Misc. services, program                                        6,623               15,571
    Misc. services, program support                              217,899               91,892

   Total program expenses                                        795,516              395,226
    Payroll accrual                                              303,244              164,932
    Payroll taxes payable                                          3,000                4,852

   Total liabilities covered by budgetary resources            1,302,391              683,562

   Liabilities not covered by budgetary resources
    Unfunded leave                                               312,836              307,460

   Total liabilities                                      $    1,615,227     $        991,022


Note 7. Commitments and Contingencies
In the course of its grant-making activities, the IAF has unliquidated grant obligations which,
in the absence of violations or cancellations of the grant agreements, will require
disbursements. Unliquidated grant obligations at September 30, 2007 and 2006 total
approximately $22,939,082 and $21,768,267, respectively. As of September 30, 2007 and
2006, there were no obligations due to canceled appropriations for which there is a contractual
commitment for payment.


Note 8. Undelivered Orders at the End of the Period
Beginning with FY 2006 the format of the Statement of Budgetary Resources has changed
and the amount of undelivered orders at the end of the period is no longer required to be
reported on the face of the statement. Statement of Federal Financial Accounting Standards
No. 7, Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounting, states that the amount of budgetary resources obligated


                                              35
                            INTER-AMERICAN FOUNDATION
                          NOTES TO FINANCIAL STATEMENTS
                           September 30, 2007 and 2006

Note 8. Undelivered Orders at the End of the Period (continued)
for undelivered orders at the end of the period should be disclosed. For the periods ended
September 30, 2007 and 2006, undelivered orders amounted to $25,723,450 and $24,150,105,
respectively.


Note 9. Program Costs
Costs by major budget object classification as of September 30, 2007 and 2006 are as follows:

              Budget Object Classifications                       2007               2006

   Personnel compensation                                    $     3,691,203 $        3,598,757
   Personnel benefits other than pension, health, and
   life insurance                                                    387,098           350,295
   Pension – CSRS                                                    135,550           126,113
   Pension – FERS                                                    345,923           314,361
   Health insurance                                                  406,028           385,515
   Life insurance                                                      6,210             6,103
   Travel and transportation of persons                              450,053           463,358
   Transportation of things                                            8,243             5,877
   Rents, communication, utilities and misc. charges                 699,340           652,313
   Printing and reproduction                                         230,976           122,599
   Other services                                                  4,400,283         4,010,675
   Supplies and materials                                            183,712            53,702
   Equipment                                                          20,905           105,012
   Grants, subsidies, and contributions                           16,255,014        14,470,885

   Total                                                     $    27,220,538 $      24,665,565


Note 10. Liabilities Not Covered By Budgetary Resources
The liabilities on the IAF’s Balance Sheet as of September 30, 2007 and 2006, include
liabilities not covered by budgetary resources, which are liabilities for which congressional
action is needed before budgetary resources can be provided. Although future appropriations
to fund these liabilities are likely and anticipated, it is not certain that appropriations will be
enacted to fund these liabilities. Unfunded FECA liability is an intragovernmental liability
not covered by budgetary resources. Other liabilities not covered by budgetary resources
consist of unfunded leave. Unfunded leave balances are $312,836 and $307,460 as of
September 30, 2007 and 2006, respectively.




                                                36
                          INTER-AMERICAN FOUNDATION
                        NOTES TO FINANCIAL STATEMENTS
                         September 30, 2007 and 2006

Note 11. Imputed Financing Sources
The IAF recognizes as imputed financing the amount of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such
benefits are the responsibility of the administering agency, the OPM. For the fiscal years
ended September 30, 2007 and 2006, imputed financing was $323,077 and $281,703,
respectively.


Note 12. Financing Sources - SPTF
The Reconciliation of Net Cost of Operations to Budget Note reconciles the financial Net
Cost of Operations with the Statement of Budgetary Resources. The IAF reports SPTF funds
obtained from the IDB as offsetting collections earned. The IAF had no exchange revenue in
fiscal year 2007 or 2006. For fiscal year 2007 and 2006, the IAF received $3,564,919 and
$3,062,440, respectively, from the IDB, which was reported on its SF-133 as funds received
from SPTF collections.

                                                        2007              2006

      SPTF cumulative results

        SPTF beginning balance                     $   19,692,528 $      23,502,291
        SPTF funds received                             3,564,919         3,062,440
        Less: SPTF funds expended                      (6,962,479)       (6,872,203)

      SPTF fund carry forward                      $   16,294,968    $   19,692,528

      Donations cumulative results

        Donations beginning balance                $        75,000 $         79,548
        Donations received                                      50                -
        Less: Donations expended                           (41,356)          (4,548)

      Donations carry forward                      $       33,694    $       75,000

       Less: Unfunded leave and accumulated
              depreciation from appropriated
              funds                                      (311,758)         (306,303)
      Total cumulative results of operations
       for SPTF, Gift and Appropriated funds       $   16,016,904    $   19,461,225




                                           37
                           INTER-AMERICAN FOUNDATION
                         NOTES TO FINANCIAL STATEMENTS
                          September 30, 2007 and 2006


Note 13. Budgetary Resource Comparisons to the Budget of the United
States Government
Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and
Other Financing Sources and Concepts for Reconciling Budgetary And Financial Accounting,
calls for explanations of material differences between amounts reported in the Statement of
Budgetary Resources (SBR) and the actual balances published in the Budget of the United
States Government (President’s Budget). However, the Presidents Budget that will include
FY07 actual budgetary execution information has not yet been published. The President’s
Budget is scheduled for publication in February 2008 and can be found at the OMB Web site.
http://www.whitehouse.gov/omb The 2008 Budget of the United States Government, with the
actual column completed for 2006 has been reconciled to the Statement of Budgetary
Resources, and there were no material differences.

Note 14. Operating Lease
The IAF occupies office space under a lease agreement, which is accounted for as an
operating lease. The IAF entered into a lease agreement that will expire on April 30, 2012.
Lease payments are increased annually based on the IAF’s proportionate share of the
building’s operating expenses and real estate taxes. The new agreement allows the IAF an
abatement credit in lieu of a build-out allowance that will be deducted from the monthly rent
for the first 26 months of the lease. Total net rental expense for fiscal years 2007 and 2006
were $646,338 and $615,000, respectively. Below is a schedule of future payments for the
term of the lease:


                      Fiscal Year                            Amount

                      FY2008                             $     689,305
                      FY2009                                   704,413
                      FY2010                                   719,898
                      FY2011                                   735,770
                      FY2012                                   440,095

                      Total future payments              $ 3,289,481




                                              38
                            INTER-AMERICAN FOUNDATION
                          NOTES TO FINANCIAL STATEMENTS
                           September 30, 2007 and 2006


Note 15. Earmarked Funds

Schedule of Earmarked Funds as of September 30, 2007

                          Balance Sheet
                                                            2007             2006
Assets
Fund balance with Treasury                             $ 16,328,662     $ 18,628,720
Other assets                                                      -        1,138,808

Total Assets                                           $ 16,328,662     $ 19,767,528

Liabilities                                            $            - $              -

Net Position
Cumulative results of operations - Earmarked funds         16,328,662       19,767,528

Total Liabilities and Net Position                     $ 16,328,662     $ 19,767,528

                      Statement of Net Cost

Program Costs
Gross costs                                            $     7,003,834 $ 6,876,752
Less: Total non-exchange revenue                           (3,564,968)  ( 3,062,440)

Net cost of operations                                 $    3,438,866   $    3,814,312

               Statement of Changes in Net Position

Net position beginning of period                       $ 19,767,528 $ 23,581,840
Net cost of operations                                   (3,438,866)  (3,814,312)

Net position end of period                             $ 16,328,662 $ 19,767,528




                                              39
                                 INTER-AMERICAN FOUNDATION
                               NOTES TO FINANCIAL STATEMENTS
                                September 30, 2007 and 2006


     Note 16. Reconciliation of Net Cost of Operations to Budget

                                                                          2007            2006
                 Resources Used to Finance Activities

Budgetary Resources Obligated
Obligations incurred                                                   $ 26,408,290   $ 25,329,994
 Less: Spending authority from offsetting collections and recoveries    (4,574,801)     (5,645,894)

Obligations net of offsetting collections and recoveries               $ 21,833,489   $ 19,684,100



                 Resources Used to Finance Activities                    21,833,489     19,684,100
Other resources
  Donations and forfeitures of property                                         50               -
  Imputed financing from costs absorbed by others                          323,077         281,703

Net other resources used to finance activities                             323,127         281,703

Total resources used to finance activities                              $22,156,616    $19,965,803

Resources Used to Finance Items Not Part of the Net Cost of
  Operations
Change in budgetary resources obligated for goods, services and
  benefits ordered but not yet provided                                  $1,493,548     $1,584,093
Resources that fund expenses recognized in prior periods                          -         19,573
Budgetary offsetting collections and receipts that do not affect net
  cost of operations
      Other                                                               3,564,919      3,062,440
Total resources used to finance items not part of the net cost of
  operations                                                             $5,058,467     $4,666,106

Total resources used to finance the net cost of operations              $27,215,083    $24,631,909

Components of the Net Cost of Operations That Will Not Require
  or Generate Resources in the Current Period
Components requiring or generating resources in future periods
   increase in annual leave liability                                        $5,377        $32,931




                                                    40
                                INTER-AMERICAN FOUNDATION
                              NOTES TO FINANCIAL STATEMENTS
                               September 30, 2007 and 2006


     Note 16. Reconciliation of Net Cost of Operations to Budget (continued)

Total components of net cost of operations that will require or
  generate resources in future periods                                      5,377       32,931
Components not requiring or generating resources:
  Depreciation and amortization                                               546          725
  Other                                                                     (468)            -
Total components of net cost of operations that will not require or
  generate resources                                                          78           725
Total components of net cost of operations that will not require or
  generate resources in the current period                                  5,455       33,656

Net cost of operations                                                $27,220,538   $24,665,565




                                                    41
gka, P.C.                                                    Certified Public Accountants | Management Consultants



1015 18th Street, NW
      Suite 200                                Independent Auditors’ Report on
  Washington, DC                           Internal Control over Financial Reporting
        20036
  Phone: 202-857-1777
   Fax: 202-857-1778      Office of the Inspector General
Website: www.gkacpa.com
                          U.S. Agency for International Development
                          Washington, D.C.


                          We have audited the financial statements (balance sheets and the related
                          statements of net cost, changes in net position, and budgetary resources,
                          hereinafter referred to as “financial statements”) of the Inter-American
                          Foundation (IAF), a U.S. Government Corporation, as of, and for the years
                          ended September 30, 2007 and 2006, and have issued our report thereon dated
                          November 1, 2007. We conducted our audit in accordance with auditing
                          standards generally accepted in the United States of America; the standards
                          applicable to financial audits contained in Government Auditing Standards,
                          issued by the Comptroller General of the United States; and, Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements.

                          In planning and performing our audit, we considered the IAF’s internal control
                          over financial reporting by obtaining an understanding of the IAF’s internal
                          control, determined whether internal controls had been placed in operation,
                          assessed control risk, and performed tests of controls in order to determine our
                          auditing procedures for the purpose of expressing our opinion on the financial
                          statements. We limited our internal control testing to those controls necessary
                          to achieve the objectives described in OMB Bulletin No. 07-04 and
                          Government Auditing Standards. We did not test all internal controls relevant
                          to operating objectives as broadly defined by the Federal Managers’ Financial
                          Integrity Act of 1982, such as those controls relevant to ensuring efficient
                          operations. The objective of our audits was not to provide assurance on internal
                          control. Consequently, we do not provide an opinion on internal control.

                          Our consideration of the internal control over financial reporting would not
                          necessarily disclose all deficiencies in internal control over financial reporting
                          that might be significant deficiencies or material weaknesses. Under standards
                          issued by the American Institute of Certified Pubic Accountants, a significant
                          deficiency is a control deficiency, or combination of control deficiencies, that
                          adversely affects the Fund’s ability to initiate, authorize, record, process, or
                          report financial data reliably in accordance with generally accepted accounting
                          principles, such that there is more than a remote likelihood that a misstatement


                                                               Member of the American Institute of Certified Public Accountants
                                                        42
                                                      Certified Public Accountants | Management Consultants


of the Fund’s financial statements that is more than inconsequential will not be prevented or
detected by the Fund’s internal control.
A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the Fund’s internal control.
Because of inherent limitations in internal controls, misstatements, losses, or non compliance may
nevertheless occur and not be detected. However, we noted no matters involving the internal
control and its operation that we consider to be material weaknesses as defined above.
In addition, with respect to internal controls related to performance measures reported in the
Management Discussion and Analysis (MD&A), we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions, as required by
OMB Bulletin No. 07-04. Our procedures were not designed to provide assurance on internal
control over reported performance measures, and accordingly, we do not provide an opinion on
such controls.

This report is intended solely for the information and the use of management of the Inter-
American Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for
International Development, the Office of Management and Budget (OMB), and Congress, and is
not intended to be and should not be used by anyone other than these specified parties.

/s/

GKA P.C.

November 1, 2007




                                                        Member of the American Institute of Certified Public Accountants
                                                 43
gka, P.C.                                                    Certified Public Accountants | Management Consultants



1015 18th Street, NW
      Suite 200
  Washington, DC                              Independent Auditors' Report on
        20036                               Compliance with Laws and Regulations
  Phone: 202-857-1777
   Fax: 202-857-1778
Website: www.gkacpa.com
                          Office of the Inspector General
                          U.S. Agency for International Development
                          Washington, D.C.


                          We have audited the financial statements (balance sheets and the related
                          statements of net cost, changes in net position, and budgetary resources,
                          hereinafter referred to as “financial statements”) of the Inter-American
                          Foundation (IAF), a U.S. Government Corporation, as of, and for the years
                          ended September 30, 2007 and 2006, and have issued our report thereon dated
                          November 1, 2007. We conducted our audit in accordance with auditing
                          standards generally accepted in the United States of America; the standards
                          applicable to financial audits contained in Government Auditing Standards,
                          issued by the Comptroller General of the United States; and, Office of
                          Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                          Federal Financial Statements.

                          The management of IAF is responsible for complying with laws and
                          regulations applicable to the agency. As part of obtaining reasonable
                          assurance about whether the financial statements are free of material
                          misstatement, we performed tests of IAF’s compliance with certain provisions
                          of laws and regulations, noncompliance with which could have a direct and
                          material effect on the determination of financial statement amounts, and certain
                          other laws and regulations specified in OMB Bulletin No. 07-04, including the
                          requirements referred to in the Federal Financial Management Improvement
                          Act (FFMIA) of 1996. We limited our tests of compliance to these provisions
                          and we did not test compliance with all laws and regulations applicable to the
                          IAF.

                          The results of our tests of compliance with laws and regulations described in
                          the preceding paragraph exclusive of FFMIA disclosed no instances of
                          of noncompliance that are required to be reported under Government Auditing
                          Standards and OMB Bulletin No. 07-04.




                                                               Member of the American Institute of Certified Public Accountants
                                                        44
                                                    Certified Public Accountants | Management Consultants




Under FFMIA, we are required to report on whether the IAF’s financial management systems
substantially comply with the Federal financial management systems requirements (FFMSR),
applicable Federal accounting standards, and the United States Standard General Ledger at the
transaction level in accordance with FFMIA section 803(a) requirements. The Administrative
Resource Center, Bureau of Public Debt, performs the accounting and reporting functions for the
IAF. We are not the auditors of the Bureau of Public Debt and did not perform tests of
compliance with the FFMSR using the implementation guidance included in Appendix D of
OMB Bulletin No. 07-04.

Those tests were performed by other auditors whose report has been furnished to us. Our report,
insofar as it relates to FFMSR compliance, is based solely on the report of the other auditors.

The report of the other auditors on the substantial compliance of the IAF with the requirements
of FFMSR disclosed no instances of substantial non compliance with the FFMSR. Our audit
tests disclosed no instances in which IAF did not substantially comply with Federal accounting
standards and the U.S. Standard General Ledger requirements.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of management of the Inter-American
Foundation (IAF), the Office of the Inspector General (OIG) of the U.S. Agency for International
Development, the Office of Management and Budget (OMB), and Congress, and is not intended
to be and should not be used by anyone other than these specified parties.


/s/

GKA P.C.


November 1, 2007




                                                      Member of the American Institute of Certified Public Accountants
                                               45
